<html>
<title> - FULFILLING OUR COMMITMENT TO SUPPORT VICTIMS OF CRIME</title>
<body><pre>[Senate Hearing 112-356]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-356
 
         FULFILLING OUR COMMITMENT TO SUPPORT VICTIMS OF CRIME

=======================================================================


                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 13, 2011

                               __________

                          Serial No. J-112-17

                               __________

         Printed for the use of the Committee on the Judiciary




                  U.S. GOVERNMENT PRINTING OFFICE
73-846                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     3
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona, prepared 
  statement......................................................    63
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    65

                               WITNESSES

Burbank, Kent, Director, Victim Services Division, Pima County, 
  Attorney's Office, Tucson, Arizona.............................     7
Garvin, Margaret, Executive Director, National Crime Victim Law 
  Institute, and Clinical Professor of Law, Lewis & Clark Law 
  School, Portland, Oregon.......................................    10
Leary, Mary Lou, Principal Deputy Assistant Attorney General, 
  Office of Justice Program, U.S. Department of Justice, 
  Washington, DC.................................................     5

                         QUESTIONS AND ANSWERS

Responses of Kent Burbank to questions submitted by Senator Kyl..    27
Responses of Margaret Garvin to questions submitted by Senator 
  Kyl............................................................    31
Responses of Mary Lou Leary to questions submitted by Senators 
  Grassley and Kyl...............................................    35

                       SUBMISSIONS FOR THE RECORD

Burbank, Kent, Director, Victim Services Division, Pima County, 
  Attorney's Office, Tucson, Arizona, statement..................    40
Farr, Amy, Victim Advocate, Vermont Attorney General's Office, 
  Montpelier, Vermont, statement.................................    49
Garvin, Margaret, Executive Director, National Crime Victim Law 
  Institute, and Clinical Professor of Law, Lewis & Clark Law 
  School, Portland, Oregon, statement............................    54
Leary, Mary Lou, Principal Deputy Assistant Attorney General, 
  Office of Justice Program, U.S. Department of Justice, 
  Washington, DC, statement......................................    67


         FULFILLING OUR COMMITMENT TO SUPPORT VICTIMS OF CRIME

                              ----------                              


                       WEDNESDAY, APRIL 13, 2011

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Whitehouse, Klobuchar, Franken, 
Blumenthal, and Grassley.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. I apologize. Things with the 
budget and all have been a little bit mixed up on schedules, 
and Senator Grassley and I have been going in three different 
directions trying to get things scheduled all at once. But I 
appreciate the people who are here.
    We had one other witness from Vermont, but she has a family 
emergency, and she will not be here.
    But this week is the 30th annual National Crime Victims' 
Rights Week. I was here in the Senate for the first one, and I 
thought how overdue it was 30 years ago to begin, and 
fortunately we have kept it going. We recognize the losses 
suffered by crime victims and their families, and we 
acknowledge the hard work being done to help people rebuild 
their lives after tragedy hits. It would be a cruel irony if 
this were the week the Crime Victims Fund was gutted, as was 
suggested in some news accounts yesterday. No one should be 
contemplating raiding this vital resource for crime victims for 
some shortsighted, short-term advantage.
    I know the needs. I have seen the needs. I saw it as a 
prosecutor, and I have seen it as a Senator.
    For nearly three decades, the Crime Victims Fund has played 
a central role in providing help to crime victims. We created 
the fund in the Victims of Crime Act of 1984. It has been the 
primary way that the Federal Government supports crime victims 
and their families. It funds State victim assistance and 
compensation programs that serve nearly 4 million crime victims 
each year. These services are priceless to the people they 
support, but they cost taxpayers nothing. It is supported by 
fines and penalties paid by Federal criminal offenders, not by 
taxpayer dollars.
    I have always thought the irony is if we have a victim of a 
serious crime and we catch the person, we can spend hundreds of 
thousands of dollars--sometimes it is very necessary--to 
prosecute the person who did it, to lock them up, to keep them 
there. And the victim is told, ``You are on your own.'' 
Something is upside down in a case like that. It is almost like 
they are victimized twice.
    After the tragedy, if you will recall, in Oklahoma City, I 
worked with this Committee and the Appropriations Committee to 
ensure that there would be funds available to help victims of 
mass violence and also to provide a ``rainy day'' reserve. We 
did this because nobody can predict with certainty in advance. 
We certainly could not predict something like Oklahoma City. So 
instead of distributing all of the funds collected the previous 
year, we have a trust fund with deposits retained so that in 
leaner years crime victims and their advocates are not left 
stranded without resources.
    More recently, when some, including former President Bush, 
sought to go into that trust fund and take the reserves, I 
worked hard and I got Senators from both parties to work with 
me to protect the fund and ensure that the reserves were 
preserved for their intended purpose, and only one: helping 
crime victims. I remain committed to maintaining that reserve. 
I also want to make sure increased funds are there. No less 
than Social Security and other trusts that the American people 
have established, the Crime Victims Fund represents our 
commitment to crime victims. It should be respected and 
honored. It cannot be used just as some kind of a convenient 
piggybank.
    So it is fitting that this Committee today considers what 
the Federal Government has been doing to support those whose 
lives have been affected by crime and what more we can do to 
renew this vital commitment. These efforts have never been more 
important than they are today. Difficult economic times have 
stretched our State and local services, including victim 
services, to the breaking point. That is in virtually every 
State in this country. Families, made more vulnerable by 
financial stress, struggle more than ever to overcome the 
emotional, financial, and physical damage caused by crime, and 
they need help.
    The theme of this year's Crime Victims' Rights Week, 
``Reshaping the Future, Honoring the Past,'' is appropriate. 
Let us take stock of what we have accomplished in these past 
three decades and determine what is needed ahead. As a country, 
we have made great strides in three decades in addressing the 
needs of crime victims, but we also know we can do more.
    Crime changes. Our responses have to adapt in turn. You 
have complicated financial offenses on the rise in the form of 
identity theft and mortgage fraud. Nobody really thought 30 
years of the problems of identity theft. We did not have the 
Internet, we did not have all these other things. Victims of 
these crimes have unique needs. The elderly, who make up an 
increasing population in many of our communities, are being 
targeted with greater frequency. They often require specialized 
services to recover from abuse and exploitation. There is a 
greater need for legal services to help crime victims with 
housing and medical needs, immigration, and the financial 
consequences of crime. Transitional housing services are more 
essential than ever for crime victims in difficult times.
    Also, as the criminal justice community becomes 
increasingly and appropriately focused on evidence-based 
practices grounded in scientific research, it is becoming ever 
clearer how much more data we need about crime victims--who 
they are, how they are victimized, what needs they have, and 
what services help. I think it is this kind of comprehensive 
research that is going to make it a lot easier with what 
resources they do have for States to tailor their needs.
    I know our witnesses have been thinking about these issues, 
and I look forward to learning from their experience. I am 
sorry, as I said, that Amy Farr, who serves as Victim Advocate 
in Vermont's Attorney General's Office, has a family emergency 
and could not be here, so she will submit her written 
testimony.
    [The prepared statement of Ms. Farr appears as a submission 
for the record.]
    Chairman Leahy. I also want to thank Robert Paolini. He is 
Chairman of the Board of the Vermont Center for Crime Victims 
Services, for attending this hearing.
    Just on a personal note, Bob, you help us in Vermont all 
the time, and you make me extraordinarily proud of what you do. 
You have always been there.
    So, with that, Senator Grassley.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. I think you and I agree on this subject, 
so I do not know whether I need to speak or not. But I have not 
said it, and every Senator wants to say it himself, right? I 
also want to notify you that I have got the 10:30 time reserved 
on the floor of the Senate, so I will be absent a little while.
    Thank you for this hearing. Thank you to the witnesses as 
well. Crime victims deserve better than they have been getting. 
Crime victims receive compensation and assistance, as we know, 
from this Crime Victims Fund. It is not dependent on tax 
revenue. It is funded for the purpose of helping crime victims, 
and it comes from fines and penalties paid by those convicted.
    For more than a decade now, there has been a cap on the 
amount of funds that each year can be distributed to victims. 
The Chairman and I recently wrote a letter to the Budget 
Committee in which we asked that the cap of the next fiscal 
year be raised more than 30 percent from current levels. That 
is a much larger increase than is proposed by the 
administration. The cap illustrates the problems with so many 
Federal grant programs. Programs get created. Sometimes they 
duplicate existing programs. They do not get fully funded. So 
the effectiveness of the program is often not as strong as it 
could be.
    We should be cautious about creating new programs, Mr. 
Chairman, for victims until we raise the VOCA cap to funding 
existing programs the way they ought to be funded. The failure 
to adequately raise the cap means that the number of victims 
who receive assistance under the existing program has fallen in 
recent years. It is not right. Nor is it right to talk about 
new programs until existing ones and the victims who benefit 
from them receive the adequate support, especially support that 
does not derive from taxpayer dollars.
    The administration is following a different path, however. 
They have not proposed raising the cap by nearly enough. It is 
this sort of gamesmanship with the VOCA funds that has let 
crime victims down. Capping the fund has limited the resources 
that are provided to victim services and the organizations 
thereof throughout the country. Instead, the fund has built up 
an unobligated balance of over $6 billion. The limited 
disbursement has led to the creation of additional grant 
programs to provide service to victims. These grants break the 
formula of the VOCA fund by using taxpayer dollars to fund 
victim programs instead of the fines placed in the VOCA fund 
from convicted criminals.
    Another consequence of this cap is highlighted in the 
forthcoming continuing resolution that was recently negotiated 
by the President and the Congress. Unfortunately, the proposal 
includes a number of budget gimmicks that are more sleight of 
hand than funding cuts. One of those gimmicks impacts the VOCA 
fund. In the legislation, nearly $5 billion in unobligated 
balances held in this fund is rescinded to the general 
treasury, so all the money that we have been supposedly holding 
onto for victims has now gone to pay for spending in other 
programs that have not been cut. This is the wrong policy. If 
we are serious about cuts, we should cut spending, not simply 
writing that spending off with non-taxpayer dollars from this 
fund.
    I have concerns with the President's budget for fiscal year 
2012 and the way it deals with crime victims. The President has 
proposed zeroing out an important existing program, the Federal 
Victim Notification Program. This program notifies victims when 
the perpetrator who offended against them will be released from 
incarceration. Congress passed a list of victims' rights, which 
includes the right to be notified of the release of criminal 
offenders who harm them. Apparently, the fiscal year 2012 
budget does not recognize this basic victim right.
    Until just last week, the administration was willing to 
spend hundreds of millions of dollars to try terrorists in 
downtown Manhattan, but opposed spending $7 million to notify 
crime victims that the person who harmed them would be 
released.
    It is against this backdrop of tough budget decisions that 
we must address the issue of the VOCA cap along with 
duplication, overlap, and fraud in grant programs. While I 
strongly support pushing more VOCA money out to the victims and 
victim support groups, which is the money from the people 
convicted of a crime, I believe we need to take a hard look at 
other grant programs. I think we need a comprehensive review of 
grant programs to review where savings can be achieved.
    I would note the testimony of Mary Lou Leary from the 
Department of Justice supports my calls for a review. She 
states in her written testimony, ``We need rigorous evaluations 
of victim service programs to learn what works and what does 
not work.''
    So I agree, especially in light of the fact that in the 
last 10 years the Inspector General has found serious problems 
with many of the individual grantees funded by the Department 
of Justice. In fact, in the last 10 years, the Inspector 
General has reviewed 19 grants involving funding for victim 
programs. Of those 19, the Inspector General found 15 that 
contained unallowable costs, unsupported documentation, and 
other problems.
    One stunning example: This report examined the Legal 
Assistance for Victims Grant Program administered by the 
Community Legal Aid Society in Delaware. The Inspector General 
found that the grantee was in material noncompliance with grant 
requirements. Further, because of the deficiencies, the 
Inspector General questioned over $829,000, which accounted for 
93 percent of the grant.
    So here we are. Given the dire fiscal situation the Federal 
Government faces, it is more important than ever to ensure that 
Federal dollars are spent in an efficient way. As we study how 
to provide victims of crime receive the help they deserve, we 
need to examine both the source of funding as well as how the 
grantee utilized those funds.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much, Senator Grassley.
    We will begin with Mary Lou Leary, who is no stranger to 
this Committee. She is the Principal Deputy Assistant Attorney 
General for the Office of Justice Programs at the Department of 
Justice. She has held that position since September 2009. Prior 
to rejoining the Department in May of 2009, she served as 
executive director of the National Center for Victims of Crime, 
and we talked to her in that time, too, and she has also 
previously held a number of positions within the Department of 
Justice, serving as United States Attorney for the District of 
Columbia. We have one other former United States Attorney on 
this Committee with Senator Whitehouse. She was Acting Director 
of the Office of Community-Oriented Policing Services, Deputy 
Associate Attorney General. She earned her bachelor's at 
Syracuse University, a master's at Ohio State, and her law 
degree at Northeastern University School of Law.
    Ms. Leary, always good to have you here. Go ahead, please.

    STATEMENT OF MARY LOU LEARY, PRINCIPAL DEPUTY ASSISTANT 
 ATTORNEY GENERAL, OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT 
                  OF JUSTICE, WASHINGTON, D.C.

    Ms. Leary. It is a pleasure, Senator Leahy.
    Chairman Leahy and distinguished members of this Committee, 
thank you so much for inviting me here today, and I am pleased 
to talk about what we do in order to fulfill our obligations to 
victims of crime.
    The Department of Justice's Office of Justice Programs has 
a broad mission, but it includes providing resources and 
leadership to support key services for crime victims.
    My own personal commitment goes well beyond the Office of 
Justice Programs. As the Senator just said, I am a former 
United States Attorney in the District of Columbia and a local 
prosecutor in Massachusetts. So I have been working with 
victims pretty much my entire career, and I am very proud to 
have served as the director of the National Center for Victims 
of Crime, a national nonprofit here in Washington.
    As you know, this is National Crime Victims' Rights Week, 
and just last week the Attorney General at a special ceremony 
honored men and women from across this country who have devoted 
their lives to serving victims of crime. Several of the people 
who were honored actually were victims themselves and had used 
that experience to help others. The stories that they told 
remind us that crime victims must never be forgotten. Justice 
for victims is justice for all.
    I do not think there is any better example of that kind of 
commitment than what we have seen in Arizona, in the wake of 
the shootings there. I am proud to be on the same panel with 
Kent Burbank, who has done so much to help Pima County, and the 
State of Arizona, recover.
    This is the 30th anniversary of the first National Crime 
Victims' Rights Week, as the Senator said. During this Reagan 
Centennial year, we should really honor that part of his 
legacy, which is lesser known than other aspects of his 
administration. Thirty years ago victims were almost entirely. 
They had no rights; they had very little support.
    So in 1982, President Reagan commissioned the Task Force on 
Victims of Crime. They held hearings across this Nation, and 
actually several of my colleagues at the U.S. Attorney's Office 
in D.C. staffed that commission. Their findings led to the 
establishment of the Office for Victims of Crime in 1983. And 
then in 1984, the VOCA statute was passed into law. That 
created the Crime Victims Fund, which Senator Leahy has 
described for us. And since then, more than $8 billion from the 
Crime Victims Fund has been distributed to States and to 
communities.
    So what does that mean? In human terms, it means 2 million 
victims have received compensation, and more than 67 million 
victims have received counseling, courtroom advocacy, temporary 
housing, and other services. Funds also have been used to aid 
other victims of terrorism and to train thousands of victim 
service providers.
    Every year 87 percent of the Crime Victims Fund allocations 
go directly to the States, and, believe me, those funds are 
sorely needed in these budget times.
    Last night, thinking about the hearing, I was re-reading 
the 1982 task force report. Ironically, it cited that very same 
fact 30 years ago. They said, ``These are tough budget times. 
States are having to cut back, and victim service providers are 
suffering.'' So here we are. Deja-vu all over again.
    We would like to assume, of course, that all victims will 
be taken care of, but that is simply not the case, especially 
for elderly victims, victims of financial fraud, human 
trafficking, crimes against gay, lesbian, bisexual, and 
transgendered people. And, in fact, just like 30 years ago 
today, 51 percent of violent crimes still go unreported. It is 
the exact same statistic.
    Crime victimization itself is also changing with the advent 
of technology. It actually makes the criminals more anonymous, 
and the victims are sometimes harder to identify. Because 
victimization is changing, victim services must also change, 
and that is the goal of Vision 21. It is a marvelous initiative 
of the Office for Victims of Crime at the Department of 
Justice. They are undertaking a comprehensive analysis of crime 
victim services, who are the victims, what do they need, how 
can we serve them better, how can we serve them smarter.
    Several themes have emerged from that. One of the most 
powerful is the need for wrap-around services for victims of 
crime. Victims need legal services; they need civil legal 
assistance. They need legal assistance in the criminal justice 
system and all kinds of support mechanisms.
    Another major theme of Vision 21 is technology. How can we 
use technology to better serve victims? And how can we better 
understand the technology that is used in victimization?
    The Vision 21 recommendations will be fleshed out in a full 
report, and I cannot wait to share that report with this 
Committee.
    Please be assured that the Department of Justice will not 
waver in its dedication to serving victims of crime, and we 
welcome any suggestions from you all about how our efforts can 
be improved.
    Thank you so much.
    [The prepared statement of Ms. Leary appears as a 
submission for the record.]
    Chairman Leahy. Thank you. And it is interesting. I 
remember my conversations with President Reagan during this 
time of his interest in this area, and that was extremely 
helpful to get the bipartisan support we needed for the 
legislation.
    Kent Burbank is the director of the Victim Services 
Division of the Pima County Attorney's Office in Tucson. He has 
held that position since 2007.
    I was surprised by this number. You and your staff serve 
nearly 8,000 crime victims a year. Of course, the one that 
everybody in America saw was at the January 8 shooting of 
Congresswoman Gabrielle Giffords and 18 others.
    Mr. Burbank and his office coordinated dozens of staff and 
volunteer victim advocates who supported the victims and their 
families at the crime scene. In recognition of his work in 
response to that horrible tragedy and other good work, he 
received the 2011 Arizona Attorney General's Distinguished 
Service Award. He has worked for more than two decades in local 
social and human services. He has a master's degree in social 
service administration from the University of Chicago.
    We hope you can continue to help crime victims out there, 
Mr. Burbank. Everybody here, and I am sure you especially, 
hopes you will never have another situation like the one you 
had in January. Please go ahead, sir.

STATEMENT OF KENT BURBANK, DIRECTOR, VICTIM SERVICES DIVISION, 
         PIMA COUNTY ATTORNEY'S OFFICE, TUCSON, ARIZONA

    Mr. Burbank. Thank you. Well, good morning, Mr. Chairman 
and honorable Senators. My name is Kent Burbank, and I am the 
director of the Victim Services Division of the Pima County 
Attorney's Office in Tucson, Arizona.
    On January 8, 2011, indeed our close-knit community was 
shaken by the tragic and senseless shooting that took place at 
Representative Giffords' ``Congress on the Corner'' event. The 
havoc created by one man's horrific act left 6 people dead, 13 
injured, over 100 witnesses in shock and panic, and a community 
stunned.
    Victim advocates from our office were among the first 
responders. Within minutes, we had several advocates on-scene, 
and within an hour, we had 35 advocates deployed across Tucson, 
including at the four hospitals that were receiving the 
wounded.
    I was at the crime scene along with Pima County Attorney 
Barbara LaWall for most of the day coordinating communication 
and overseeing our advocacy efforts. Throughout the day and 
night, our victim advocates worked with literally hundreds of 
victims, witnesses, and their family members, providing them 
with crisis intervention services and emotional support. On 
more than one occasion our advocates had to deliver the 
difficult news to family members that their loved one had been 
killed.
    Angela Robinson is the daughter of two of the January 8th 
shooting victims. Angela's mother was gravely wounded in the 
shooting, and her father was killed. Angela described how 
incredibly difficult the day was for her and her family. She 
told how her sister and brother-in-law ``raced to the Safeway, 
ran through the carnage, frantically looking for Mom and Dad, 
while Mom kept talking to my sister on her cell phone and Dad 
lay dying on her lap.''
    Angela recounted how her son met them minutes later at the 
hospital to ``find his grandmother covered in blood, five 
gunshot holes in her legs.'' Angela said to me, ``Victim 
Services was beside them. Victim Services provided the trauma 
counselor to guide my precious loved ones not only through 
grief and loss but extreme violent trauma.''
    This is a testament to the critical importance of having 
highly trained, experienced, and professional victim advocates 
in our communities. With over 35 years of experience, ours was 
one of the first programs of its kind in the Nation. Over the 
years our advocates have been called out to work with victims 
of natural disasters and terrorism, including the Oklahoma City 
bombings and 9/11. Currently under the leadership of Pima 
County Attorney Barbara LaWall, our Victim Service Division has 
a staff of 28 employees and more than 120 volunteers that allow 
us to do this work.
    The Pima County Attorney's Office has been very fortunate 
to have just received an Antiterrorism and Emergency Assistance 
grant through the Victim of Crimes Act, otherwise known as 
VOCA, to help us meet the ongoing needs of the January 8th 
tragedy victims over the next several years as the cases move 
through the courts. Without these VOCA funds, our resources 
would have been strained to meet the needs.
    But the downturn in the economy has put a tremendous strain 
on our partner service organizations in the community. 
Nationally, most of the newly founded legal clinics for victims 
are in crisis. Since 2004, when Congress passed the Justice for 
All Act, which enumerated the rights for Federal crime victims 
and included funding for the enforcement of these rights, 11 
clinics have opened across the country. But despite their 
successes, virtually all these clinics will be closed by the 
end of the year without further action by Congress to support 
their work.
    In Arizona, the recession has meant a significant decrease 
in State and local funding for victim services and for victims. 
There has been a 42-percent reduction in State funds for 
domestic violence services and shelter since 2008. Tucson's 
primary domestic violence service agency, Emerge! Center 
Against Domestic Abuse, lost 24 percent of its State funding 
for shelter services over the past couple years. Sarah Jones, 
the executive director of Emerge! said to me, ``Our shelter 
beds are full, our phone lines are ringing day and night, and 
we are turning away on average 10 to 12 women a week.''
    Cuts in private and public health care coverage have made 
it difficult for victims to get medications they need for 
conditions like depression and anxiety that are a direct result 
of their victimization. Foreclosures and cuts in housing 
assistance have forced domestic violence victims to return to 
their abusers or sleep in their cars.
    During these troubling economic times, communities depend 
on victim compensation and victim assistance funds provided by 
VOCA and also by the Violence Against Women Act, VAWA. This is 
precisely the time when the Federal Government should be 
increasing funding to victims and victim service organizations 
by raising the VOCA cap. VOCA funds come entirely from fines 
and fees and other assessments on criminals, not tax dollars. 
So increasing this fund cap would immediately result in more 
funds flowing to the victims who most need them.
    It is not only the compassionate and right thing to do, but 
it also makes financial sense. If these funds do not come from 
criminal activity, they will most likely come from local 
communities and State governments, who will pay them in the 
form of higher unemployment claims, Medicare and Medicaid 
costs, and community mental health services.
    In Arizona, we are fortunate to benefit from some of the 
most robust victims' rights statutes in the Nation. These 
rights make a real difference in the lives of victims, 
affording them a measure of fairness, dignity, and respect in a 
system that is often confusing and overwhelming. And these 
rights co-exist harmoniously with the rights of the accused 
within the criminal justice system.
    Victims' rights statutes are an advance over the days in 
which victims were left uninformed about proceedings, excluded 
from hearings and courtrooms, and denied the ability to confer 
with prosecutors. But more work needs to be done because we 
know that these rights and protections are incomplete and 
inconsistent across the Nation.
    So it is crucial that we finish the work begun by President 
Reagan's Task Force on Victims of Crime. We should carry out 
its recommendation for a Federal constitutional amendment 
recognizing victims' rights and providing uniform protection 
for all Americans.
    I want to end with the words of Susie Hileman, one of the 
victims of the January 8th shooting, who said, ``I could not 
have managed to sit in the arraignment without Victim Services. 
You anticipated my fears and my tears, and you had people 
surrounding me. You answered my questions and told me the 
truth. You are my touchstone in an otherwise unwieldy and 
overwhelming process. I could not have done it without you.''
    Thank you.
    [The prepared statement of Mr. Burbank appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Mr. Burbank.
    Meg Garvin is currently the executive director of the 
National Crime Victim Law Institute and clinical professor of 
law at the Lewis & Clark Law School. She also co-chairs the 
Oregon Attorney General's Crime Victims' Rights Task Force, 
serves on the Legislative and Public Policy Committee of the 
Oregon Attorney General's Sexual Assault Task Force, served as 
co-chair of the American Bar Association's Criminal Justice 
Section Victims Committee, was a board member of the National 
Organization of Victim Assistance, undergraduate at University 
of Puget Sound, master's in communications studies from the 
University of Iowa--I will have to remind Senator Grassley--and 
her law degree from the University of Minnesota Law School. And 
I do not have to remind Senator Klobuchar or Senator Franken. 
We are surrounded by people from Minnesota here today.
    [Laughter.]
    Chairman Leahy. Go ahead, Ms. Garvin.

  STATEMENT OF MARGARET GARVIN, EXECUTIVE DIRECTOR, NATIONAL 
  CRIME VICTIM LAW INSTITUTE, AND CLINICAL PROFESSOR OF LAW, 
           LEWIS & CLARK LAW SCHOOL, PORTLAND, OREGON

    Ms. Garvin. Thank you. It is a good way to be surrounded.
    Mr. Chairman and distinguished members, thank you so much 
for having me here today. It is quite an honor to be here 
during the 30th National Crime Victims' Rights Week.
    I want to spend some time talking about the theme of this 
year's Crime Victims' Rights Week, which is, ``Reshaping the 
Future, Honoring the Past.'' And the reason I want to spend 
some time on that theme is because we have made commitments to 
victims in this country, and our history shows what those are, 
and our history also shows us how we can fulfill those 
commitments to crime victims.
    The history of victims in this country going back more than 
30 years, if we go back to the founding, shows that victims 
were an integral part of our criminal justice system from the 
start. And yet sometime over the years at some point they 
became mere witnesses to cases and pieces of evidence in those 
cases, and that was shown quite dramatically in the 1970s and 
early 1980s when literally victims were asked to sit outside 
courtroom doors, peek through cracks in the door to try and see 
what was happening. We know that Vince and Roberta Roper, whose 
daughter was kidnapped, raped, and murdered, were literally 
told to sit outside during the trial of the offender in that 
case. And that was happening in nearly every case. It was 
happening in homicide cases, sexual assault cases, domestic 
violence cases. It was happening throughout the 1970s and 
1980s; victims were mere pieces of evidence in a case. They 
were not treated with humanity and dignity.
    To remedy that imbalance, fortunately, a lot of laws have 
been passed. They have been passed in every State. More than 30 
States--33 actually have passed State constitutional 
amendments. Every State has passed a statutory scheme or system 
to afford victims rights. But what is interesting is when you 
look nationally, the rights vary greatly. So quite literally, 
we have what I call, when I do my more informal trainings, the 
``Judge Judy/Judge Joe effect.'' Depending on which judge you 
are in front of, you get different rights if you are a crime 
victim in this country. And it can happen within a State, it 
can happen across State borders, and it certainly happens if 
you are in a State system versus the Federal system. You are 
treated differently.
    Fortunately, efforts at the Federal level have passed 
statutes that have allowed for some similarity of treatment, 
some fairness to happen for crime victims regardless of what 
system they are in. The key piece of that legislation was the 
Federal Crime Victims' Rights Act of 2004. That Act provides 
eight specific rights to crime victims to allow them 
participatory status in the system, and most importantly, it 
allows them independent standing, which means that the rights 
are actually owned by the victim. They get to assert them when 
they want. They get to say what they want when they need to say 
it.
    The very first Federal circuit court that analyzed the 
Federal Crime Victims' Rights Act was Kenna v. District Court, 
and that happened in the Ninth Circuit. That court said of the 
CVRA that the CVRA was changing the modern criminal justice 
system's assumption--the assumption that crime victims should 
behave like good Victorian children: seen but not heard. So 
what we have is a Federal law that is allowing us to have 
victims not only seen but heard in the system.
    Notably, the CVRA contains not just rights but also 
authorizes funding for appropriations for legal services to 
make sure those rights have meaning. Having legal services to 
protect rights is critical. As the U.S. Supreme Court has even 
said, ``The right to be heard would be, in many cases, of 
little avail if it did not comprehend the right to be heard by 
counsel. Even the intelligent and educated layman has small and 
sometimes no skill in the science of law.'' Having a lawyer 
sitting next to you makes a difference in court proceedings.
    Now, the U.S. Supreme Court was saying that in 1932 about 
defendants' rights, but it has no less meaning or weight when 
you think about victims' rights. In the case I referenced just 
a minute ago in my testimony, Kenna v. District Court, Mr. 
Kenna was trying to exercise his right to be heard. The only 
way his right to be heard was allowed in that case was because 
he had pro bono counsel sitting next to him and he took an 
appeal to the Ninth Circuit Court of Appeals.
    Where did that pro bono counsel come from? It came from a 
national network of victims' attorneys that NCVLI launched in 
2004. What started as five clinics in 2004 is now 11 clinics 
operating across the country. Since its launch that network has 
represented more than 4,000 victims, filed 2,300 pleadings, and 
supplied more than 100,000 hours of attorney times to victims 
in this country.
    Sadly, as Mr. Burbank has already said, this network is in 
jeopardy. All 11 clinics will shut this year. There will be no 
legal services for enforcement of victims' rights at the end of 
the year if funding continues as it is. The impact of these 
closures is going to be significant.
    As of March 31st, NCVLI's clinical network had 235 open 
criminal cases in this country. The impact of those numbers is 
a little more meaningful if you actually look at the people who 
are being served. One of the victims being served is in the 
Tucson shooting case. Our Arizona clinic is representing one of 
the victims in that case, seeking justice and making sure that 
that victim can exercise his rights when he needs to and in the 
manner in which he wants to.
    Another clinic is representing a victim in the case of 
United States v. Keifer. In that case, it is a complex fraud 
case, and the victim was not even notified of proceedings 
because those proceedings had been under seal. So the victim 
did not know if they were a victim, were not a victim, whether 
restitution was going to be ordered or not until a pro bono 
attorney stood next to them and fought for the right for 
restitution and to be heard at sentencing. Fortunately, they 
succeeded, but now the defendant has filed a habeas action and 
is challenging restitution again.
    In 1984, with the passage of VOCA, Congress made a promise 
to victims, a promise that funds would be available and 
services would be available. In 2004, Congress made another 
promise to victims, that they would have rights in the criminal 
justice system and would not be mere interlopers on the system 
anymore. Vision 21 is a wonderful project that the Office for 
Victims of Crime is using to envision the future of victims' 
services, and NCVLI is fully committed to that effort, as we 
too are committed to envisioning a better future. But notably, 
as has already been said, one of the key findings coming out of 
Vision 21 is that victims must have access to competent and 
independent lawyers to protect their rights. Thus, even when 
looking anew or afresh at victim services, the answer coming 
back is the very one that Congress articulated in 2004: fund 
legal services for victims of crime.
    This promise can be kept. It can be kept because while 
there is a cap set on VOCA, that cap can be raised. It seems 
indisputable that there are sufficient funds in VOCA to fund 
legal services for victims and to have services that are 
necessary across the country. I urge Congress to look 
critically at the promises that have already been made to 
victims in this country and to re-commit to upholding those 
promises, including legal services for victims.
    Thank you.
    [The prepared statement of Ms. Garvin appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you, and I thank all the panel. 
I read your statements earlier, and those whole statements are 
in the record. But I hope people are listening, and I am glad 
that many are, because as Senator Grassley pointed out it is 
something he and I both agree on, this is not a partisan issue. 
You do not ask whether a crime victim is a Republican or a 
Democrat or an Independent. They are a victim.
    Again, we have several former prosecutors on this panel, 
Senator Klobuchar and I and, of course, Senator Whitehouse who 
was here earlier. And we all know how we can bring down all 
kinds of efforts, and should, to go after the perpetrator of 
the crime. But too often it is too easy to forget the victim.
    Now, Mr. Burbank, as you know, the whole country's heart 
goes out to your community and the people whose lives were 
changed forever. Those who survived, their lives have changed 
forever from January 8th. And something like that is 
overwhelming, and it can quickly deplete victim services funds 
to help the communities be able to provide ongoing services 
when you have something extraordinary like this happen. I 
worked after the Oklahoma City bombing to create the 
Antiterrorism and Emergency Assistance Program. I worked with 
Senators on both sides of the aisle, and we got it done. It 
sets aside funds from the Crime Victims Fund to be used in an 
emergency situation, like the tragedy in Tucson.
    Now, I understand Pima County recently received $1.7 
million for that emergency fund. Is that right?
    Mr. Burbank. That is correct.
    Chairman Leahy. What is that going to do?
    Mr. Burbank. Well, it is going to help us enormously. As 
you were mentioning, these types of situations can very quickly 
overwhelm the services that are available because already we 
are operating on a very stretched budget, and so to have 
suddenly this magnitude of victims in our community that are 
needing additional services means that we need to be able to 
ramp up, and ramp up very quickly. And so having this grant 
that we have just received from the Antiterrorism and Emergency 
Assistance funds that were set aside in VOCA has been and will 
be incredibly beneficial over the upcoming years, and that is 
the benefit of this. These will provide funds over the next 3 
to 4 years as these cases move through the court system.
    Chairman Leahy. You know, it was interesting. When I put 
that money in, fought to put that money in, I prayed that it 
would never be necessary to use it. We all did. We never could 
have anticipated something that happened there, but we have 
also had other horrific situations in other parts of the 
country.
    I do not want to put words in your mouth, and just because 
I helped create the fund, but would you suggest we keep that 
fund?
    Mr. Burbank. Absolutely. Of course.
    [Laughter.]
    Mr. Burbank. And you do not need to put words in my mouth.
    Chairman Leahy. It would have been a heck of a hearing if 
you had said----
    Mr. Burbank. If I had said no, that would be terrible, 
wouldn't it? I mean, obviously, it is an incredibly important 
piece. Being able to access funds very quickly in an emergency 
situation makes all the world of a difference. And we are most 
grateful for your wisdom and foresight in being able to create 
this fund to begin with, and then the work with the Office of 
Justice Programs and OVC, to be able to access those funds very 
quickly through a special process, so thank you.
    Chairman Leahy. Thank you.
    Ms. Leary, you talked about seeing changes in crime 
victimization and there are perhaps some gaps in crime victim 
services. What are some of these changes? And what are the kind 
of gaps that it might create?
    Ms. Leary. Well, I am sure you remember from your days as a 
prosecutor, as I do, that I almost felt like the criminals were 
way ahead of law enforcement all the time on technology and 
everything else, and that is continuing. We are seeing 
criminals becoming increasingly anonymous, victims harder to 
identify because of things like financial fraud, all the myriad 
of schemes that you read about in the financial news every 
single day, and sometimes we do not even recognize these crimes 
because people do not understand the instruments that are being 
used.
    There are all kinds of technology being used to stalk 
individuals, and it goes way beyond the Internet, although that 
certainly has proliferated all kinds of cyber crime. Child 
exploitation on the Internet is absolutely appalling, very 
widespread.
    A friend of mine who is the Inspector General for the New 
York City School System told me that he used to really worry 
about teachers having access to kids, teachers who should not 
have been in the classroom in the first place. And now, he 
said, it is almost impossible to deal with that because these 
folks are having contact with the kids online, and you cannot 
really monitor that.
    So there are all kinds of technological challenges that we 
are just beginning to recognize. And, of course, the flip side 
of that is how can we use technology to our own advantage as 
law enforcement and particularly as victim service providers. 
You want to talk to a 15-year-old victim. They are unlikely to 
chat with you on the phone. You have got to be able to do the 
texting and the tweeting and all kinds of chatting with kids 
online. We need to be able to use smart phones and cell phones 
and webinars and, you know, just all kinds of things that, 
frankly, I cannot even imagine sitting here right now, but I am 
sure that within the next 5 years there will be----
    Chairman Leahy. It will be changed that much more. I mean, 
Skype, the fact that you can sit there----
    Ms. Leary. Absolutely. Look at telemedicine. Same thing.
    Chairman Leahy. Grandparents love it. Everybody else does. 
You know, Professor Garvin talked about the Crime Victims' 
Rights Act, how that helped legitimize crime victims' rights 
since it was passed in 2004, one of the reasons we are trying 
to strengthen the Justice for All Reauthorization Act.
    I have to go to a different hearing. I am going to 
recognize Senator Franken before I do, but Senator Klobuchar 
who has done this quite often, I appreciate her being willing 
to take the gavel. Thank you. Just be sure to give it back.
    [Laughter.]
    Senator Franken. Thank you, Mr. Chairman.
    Ms. Leary, I want to start with you today. Thank you. I 
have been hearing such tremendous things about the work that 
you have been doing in your department to help States and local 
agencies. The Minnesota Office of Justice Programs has raved 
about your office, how great of a partner it has been on victim 
services. They said you have really just gone out of your way 
to reach out to Minnesota to see how you can help, and you have 
been incredibly flexible and supportive, so I want to say thank 
you.
    Ms. Leary. Thank you, sir.
    Senator Franken. Minnesota has long been a leader in 
innovative domestic violence programs, and the city of St. Paul 
recently came up with a blueprint for domestic violence 
intervention strategies that really should be a model for how 
criminal justice agencies can work together.
    I was excited to see that you are also making sure that 
programs are relying on evidence-based decisionmaking that 
guarantees that every dollar we spend is being used to fund 
programs that are proven to work.
    Can you tell me more about what the Department is doing to 
promote evidence-based decisionmaking and ensure that other 
States have access to the kind of innovative programs and 
strategies being designed in places like St. Paul?
    Ms. Leary. Certainly, and Minnesota does have a long and 
rich history of serving victims of crime. I know that Senator 
Wellstone was significantly involved in that.
    In terms of the evidence-based approach and disseminating 
that kind of information, I am particularly pleased--this is a 
big priority at the Department of Justice overall and 
throughout the Office of Justice Programs, but I am 
particularly pleased to see that we are moving in that 
direction in victim services as well. You know, it started out 
as a movement. It is kind of grass-roots advocates, volunteers, 
and it is all about passion and compassion for victims. And it 
has evolved, is much more of a professional field. We will 
never lose the passion. We will never lose the compassion. But 
it has been much more professionalized as well. And like the 
rest of the criminal justice system, victim services has got to 
work smarter. We have to base what we do on what we know from 
research and from statistics.
    So I think the most significant thing that we are doing 
right now is an exercise called Vision 21, which the Office for 
Victims of Crime has convened, and it is a comprehensive effort 
to look at victim services to see who are the victims, what are 
we doing to serve them, where are the gaps in that service, 
what are the emerging challenges, the new types of 
victimization, new types of victims and so on, and how can we 
build the capacity of victim service providers across the 
country to serve these victims.
    Obviously, if this is going to be evidence based, the key 
is we have got to do more research. We have to collect better 
data.
    We have the National Crime Victimization Survey, which is a 
wonderful tool, but it is not adequate for the task. There are 
certain types of crime where that kind of survey does not 
really get at the nuances. And there are all kinds of other 
statistics that need to be gathered.
    For instance, we need to be doing a lot more research and 
data collection in Indian country. You certainly know from your 
experience in your State that the violent crime and the 
domestic violence and sexual assault crime rates in Indian 
country are absolutely unacceptable. We would never put up with 
that in any other community in this country. And we do not even 
really know the half of it because it is unreported, because we 
have not done enough. That is the kind of thing that we need to 
do, so that when you plot the strategy for victim services 
going forward, you have a solid base of knowledge. You have 
your data. You have your research on what works with victims. 
You have your research on the characteristics of victims, the 
needs both now and in the future. And then you can tailor your 
programs, and you can apply your dollars wisely.
    Senator Franken. Well, thank you. I just have a few seconds 
left, but I agree with you on Indian country, and in the Indian 
Affairs Committee I have tried to address that and increase 
data collection on crime in Indian country.
    Madam Chair, can I ask one more?
    Senator Klobuchar [presiding]. Oh, please do.
    Senator Franken. OK. Thank you.
    Mr. Burbank, I, like most Americans was horrified by what 
happened in Tucson, but I have to say the services you and your 
team of staff and volunteers were able to provide to the 
families and friends and witnesses of this horrible tragedy was 
just amazing.
    You mentioned in your testimony that crime victim 
compensation funds are frequently a last resort for States, and 
when the States run out of Federal dollars, victims often pay 
the price.
    Last Congress, I introduced legislation to ensure that 
survivors of sexual assault are never charged for the cost of 
their rape kit exam. I find it appalling that States sometimes 
bill victims or force them to apply for insurance coverage 
before seeking reimbursement.
    As someone who works on the ground with victims of sexual 
assault, do you think the practice of billing sexual assault 
victims for their medical exams makes victims more reluctant to 
report their crimes?
    Mr. Burbank. Well, I certainly agree with you that charging 
victims for things like medical forensic exams is simply 
unconscionable. We should not be shifting those burdens onto 
victims. I am not sure whether or not that would be a deterrent 
to a victim coming forward, but I do know that it certainly can 
be a hardship for victims, but also there is an emotional 
burden that comes with that. Having to pay for a medical 
forensic exam after you have been raped or sexually assaulted 
is very, very difficult for victims and feels like an 
additional victimization oftentimes.
    Senator Franken. Thank you very much.
    Thank you, Madam Chair.
    Senator Klobuchar. Thank you.
    Senator Whitehouse, are you ready?
    Senator Whitehouse. Thank you, Madam Chair. I want to thank 
the panel very much for being here, for their testimony, and 
for their service, particularly those who have been 
prosecutors, U.S. Attorneys and so forth. Thank you, Ms. Leary.
    I just wanted to get your reactions to the news that has 
come out about the extent to which the cuts that have recently 
been agreed to have focused on victims of crime in the 
Department of Justice budget and what your advice is to all of 
us to try to prevent that damage from having too much impact on 
the victims that, frankly, are prototypical innocent victims of 
this, and there is no reason that they should be bearing the 
cost here. But it looks like they will be.
    So have you had the chance yet to analyze how deep those 
cuts will go and to what extent they may affect programs and 
grants that support what you are doing right now?
    Ms. Leary. You are looking at me, Senator Whitehouse, so 
I----
    Senator Whitehouse. I will go right down the line, but I 
will start with you.
    Ms. Leary. Thank you. We have not had a chance to do a full 
analysis. I, too, read the article in the Washington Post 
saying that almost $5 billion has been cut from the fund. But, 
in fact, we later learned to our relief that that is actually 
not the case, that, rather, it is an accounting issue. So we 
were very relieved to hear and that, in fact, the amount of 
funding in the Crime Victims Fund will remain the same for this 
coming year, so that the Office for Victims of Crime will have 
that same amount of money to work their programs.
    Senator Whitehouse. As was expected.
    Ms. Leary. But there are other cuts, you know, in other 
parts of the Department of Justice that may have an impact. We 
have not had a chance to analyze yet. You know, there is a 
percentage cut across the board. So it really depends on how 
that plays out.
    For instance, there are programs in the Bureau of Justice 
Assistance that augment the work of the Office of Victims of 
Crime in things like training law enforcement, and we all know 
that a victim's first encounter with law enforcement--that is 
often the first person that a victim might encounter, and 
research really shows that that can have a significant impact 
on how that victim moves forward, whether that victim is able 
to move forward toward recovery.
    So we have not had a chance to analyze all that yet, but 
there may be some impact.
    Senator Whitehouse. Just so you know, I have heard the same 
thing that you have, that the reduction from $6 billion to $1 
billion is an accounting adjustment and would not have 
immediate effects in the actual expenditures that are available 
to the victims of crime group in the Department of Justice. And 
I hope that is true, but when you see big money moving around 
like that, it is hard to imagine that it could actually have as 
little effect. You would think that would have disappeared 
already somehow if it was purely an accounting trick. So I am 
watching carefully to see that.
    Mr. Burbank.
    Mr. Burbank. Well, I am glad that it is being watched very 
carefully. As I was mentioning in my testimony, the downturn in 
the economy, the economic recession, has had tremendous impacts 
on the local and State levels. In Arizona, at least two 
organizations that served victims have closed their doors, 
including a family advocacy center serving a rural area in our 
State. Other agencies across the board pretty much have had to 
cut services to victims because of decreases in State and local 
income coming in for victims of services.
    So the concern here is that these agencies depend on 
Federal monies at this moment to keep their doors open. VOCA 
funding and VAWA funding is incredibly important for these 
victim services organizations. And if that money should go away 
or be reduced in any way, we would see further cuts in already 
damaged victim services. The safety net is beginning to crumble 
at the local level in many cases.
    Senator Whitehouse. Ms. Garvin.
    Ms. Garvin. Just quickly, my understanding is that it is an 
offset also, but even if it is an offset and it is an 
accounting thing, I would appreciate it if a close eye was kept 
on it, because even as an offset and an accounting maneuver, 
then rhetorically we have less money in the fund, which means 
people are not going to be as comfortable raising the cap and 
giving money to victim services.
    So even if the exact amount is going to come back out to 
the field as came out in prior years, that is not enough for 
the field, and we are seeing the ramifications of that right 
now. So we have to keep a close eye on it. But also the Victims 
Fund is victims' money, and that is where it should be going.
    Senator Whitehouse. Thank you all very much for what you do 
and for your testimony.
    Thank you, Madam Chair.
    Senator Klobuchar. Thank you.
    Senator Grassley, you are up.
    Senator Grassley. I explained to the Chairman that I was on 
the Senate floor. I am sorry I did not hear the testimony. I 
have read it.
    Ms. Garvin, can you tell me about the effect that the cap 
on the Crime Victims Fund has had on the victims to whom you 
provide services?
    Ms. Garvin. The services that NCVLI provides are funded 
through two streams. The Federal Crime Victims' Rights Act has 
an authorization for appropriations in it, and some money has 
come directly through appropriations to fund some of our work, 
although that has not happened since 2008. Then other funds 
have come through grant programs, including VOCA, through the 
Office for Victims of Crime. And the cap, I would say what is 
happening to our services and services nationally is that there 
is not enough money making its way out to the field.
    We know that victims have more needs than are being funded. 
We know that the legal clinics that we oversee are going to 
shut down this year and that victims, including victims in the 
Tucson shooting, will not have an attorney with them. As of 
July of this year, actually, that clinic will not have funding 
to continue and to provide representation. So the cap is 
putting restrictions on the services that are available.
    Senator Grassley. I want your judgment of whether or not 
you think it makes sense for us to create new crime victim 
programs before the existing programs that are now being 
shortchanged are fully funded.
    Ms. Garvin. Well, as has been spoken about this morning 
already, those programs that are providing good services and 
have been tested and are evidence based, they should continue 
being funded. Our program has been tested. We have been 
evaluated. Other programs around the country have been also. 
Those should be funded first because that is a promise we 
already made to victims. Looking forward and creating new 
programs is a visionary thing to do, but not at the sacrifice 
of the promises we have already made to crime victims.
    Senator Grassley. Ms. Leary, the administration proposes 
only a small increase in the cap from the Crime Victims Fund, 
and it would zero out the Federal Victim Notification System, 
which I said in my statement notifies crime victims when an 
individual who committed that crime is released. Further, it 
would reduce by one-third the budget for the National Crime 
Victimization Survey.
    Do you support these cuts that the administration has 
proposed to Victim Notification and to the National Crime 
Victimization Survey?
    Ms. Leary. Well, Senator Grassley, one of the things that 
the Department is thinking about is the impact of the Vision 21 
initiative, which is ongoing now, which is taking a 
comprehensive look at what we need to better serve victims 
going forward from here. And in the past, there have been 
piecemeal looks, and you look at one piece of the system, and 
you try to improve things there. Then you look at another 
piece, and you try to improve things there. But it does not 
work unless you look at the whole and you look at all of the 
kinds of programs that are needed and make decisions based on 
that. And that is exactly what we are doing. And I think out of 
that process will come a different way of looking at victim 
services, proposals to fund all of those things that work, that 
fit into that comprehensive view, and to use the funds in the 
ways that are most appropriate for what we know victims need.
    I totally agree we need to avoid duplication of services. I 
think we need to help victim service providers learn more about 
how to base what they do on evidence. We need to help them 
learn how to increase their own capacity to serve victims in a 
smarter, more efficient way.
    Senator Grassley. I cannot find fault with your survey and 
studying things and being evidence based and all that, but it 
seems to me that by doing to these two programs what they are 
doing, they have already made a declaration that those programs 
are not serving. So you would think that they would wait 
until--you and they would wait until the study is over before 
you reached a conclusion that to me puts low priority on 
supporting crime victims as evidenced by these proposed cuts.
    I will go on to ask you this question, and it will be my 
last one. Despite the cuts that I mentioned, the administration 
proposes $135 million more be spent on victims of violence 
against women. You have also called for continuation of a new 
hate crime victim discretionary grant program that the Justice 
Department created with stimulus funding.
    Given the shortfalls in funding for crime victims that has 
been made clear today, do you believe that certain types of 
victims should take priority over others? And that is what I 
sense from the priority given to these programs. And I do not 
see anything wrong with those programs, but it just seemed to 
me that you have a greater priority.
    Ms. Leary. What we know, Senator Grassley, is that, in 
fact, right now, a good percentage of the VOCA funds go to 
victims of violence against women because, unfortunately, that 
is one of the enduring challenges of the victim services field. 
There are so many overwhelming unmet needs. You heard Mr. 
Burbank talk about the shelter in Tucson having to turn away 12 
women a week. The beds are full. The phones are ringing off the 
hook.
    We know the National Network to End Domestic Violence does 
a snapshot every year, and they survey all of the shelters and 
the crisis service providers. And the last snapshot they took, 
in that 1 day these organizations had served 70,000 victims, 
women and children for the most part. But they had to turn 
almost 10,000 away on a single day.
    So it is just that we already know that that is such a 
pervasive form of victimization with needs, unmet needs that 
are almost--they are difficult to comprehend, really, because 
it is just so significant. We still need to do a lot more in 
that arena, and it crosses all age lines, race lines, 
socioeconomic lines.
    Senator Grassley. Thank you very much.
    Thank you, Madam Chair.
    Senator Klobuchar. Thank you.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Madam Chairman.
    I have a question regarding longer-term services. Many of 
the victim advocates or victim services focus on short-term 
needs, as you know, and very rightly and deservedly so. My 
office has been working with a group called Voices of September 
11th, which does work on mental health screening and counseling 
and other kinds of casework, and that group provides services 
in those areas, and I wonder if you could talk about the 
strategy of your respective efforts in terms of dealing with 
the longer-range services that can be provided to crime 
victims.
    Mr. Burbank. Well, you know, speaking for the Pima County 
Attorney's Office, you are absolutely right. We recognize not 
only the short term but the long term. The short term is met 
through our on-scene crisis intervention work, so when we 
actually go out at the request of law enforcement to work with 
those victims, as we did on the January 8th shootings at the 
Safeway where this occurred and in the hospitals. But then we 
follow those victims, providing them with supports throughout 
the entire criminal justice system. And a big piece of what we 
are doing is not only the criminal justice system advocacy, but 
as you mentioned, they have lots of other needs. And making 
time to make sure that those advocates are well versed in what 
community resources are available, getting them connected with 
victim compensation funds that can help fund some of those, 
mental health as well as other health needs for these victims, 
is crucial.
    In this case, because of the nature that it is both a 
Federal case as well as a State case, these victims most likely 
will be in the criminal justice system for at least 5 years, 
and potentially much longer than that, as we know, for example, 
with the Oklahoma City bombings. And we also know that after 
cases conclude, many of those wounds still are there for these 
victims, and they have needs that go on for years and years and 
years. And so it is a very important part, and I am glad that 
you are focusing time and energy to look at the ongoing and 
long-term needs of victims, so thank you for that.
    Ms. Garvin. I would like to echo that, that I appreciate 
the focus on it. I know in our work so far in Vision 21, one of 
the things that we have noted that is coming from the field is 
that long-term care for victims is critical. And some of the 
cases that our lawyers are working on demonstrate this. There 
is an Oregon case, a habeas case going on right now where a 
women was stabbed 18 years ago, and the habeas proceeding was 
just filed, and she was ordered to go to deposition 18 years 
after her stabbing. And so we needed to have a lawyer there for 
her in that moment, not just in the original prosecution.
    So the ongoing care is critical as well as continuity of 
care. Making sure the same programs that she or he as a victim 
have developed a relationship with are there when they need 
services 5, 10, 15, even 20 years later is critical.
    Senator Blumenthal. Ms. Leary.
    Ms. Leary. Yes, Senator, thank you for that question. I am 
familiar with the September 11th organizations through my work 
at the National Center for Victims of Crime, and I know that 
Joye Frost, who is the Acting Director of the Office for 
Victims of Crime, is very familiar with that organization. They 
represent the significance of those kinds of needs, those long-
term needs. And as Meg said, there is a lot of focus on that 
through the Vision 21 initiative.
    I would like to add that we need more research into this 
arena as well so that we have a much better understanding of 
the impact of crime over the long term. What are the mental 
health issues that can arise? What are the emotional kinds of 
issues? What kind of an impact does your victimization, you as 
an individual, what kind of an impact does that have on your 
family, on your loved ones, over the long term? It is hugely 
significant. And many victims, including the September 11th 
victims, have spoken to us about the pain of people treating 
them as if they should just have gotten over it by now. That is 
just not the case. And, unfortunately, our society still is 
rather insensitive about that.
    Senator Blumenthal. My time has expired, but I just want to 
commend you and thank you for the great work that you are 
doing, and particularly as we celebrate this month, thank you 
very much for all you are doing.
    Ms. Leary. Thank you.
    Mr. Burbank. Thank you.
    Ms. Garvin. Thank you.
    Senator Klobuchar. Thank you very much, and I want to thank 
all of you for being here on this important day. It is the 30th 
anniversary of the first National Crime Victims' Rights Week. 
We have come a long way despite the challenges that we are 
facing now. I know in my own office that I used to head up, the 
Hennepin County Attorney's Office, and I met my counterpart in 
the county attorney's office there. We certainly were a leader 
in these areas, including our Domestic Rights Center where we 
really had a one-stop shop, and still do, under County Attorney 
Mike Freeman for victims of domestic assault where not only are 
there prosecutors and police but also the shelters and others 
are there to help them with their needs. And I have been a big 
believer in this. We did surveys in our office and found that 
while obviously the results were important, cases and 
convictions were important, just as important, and sometimes 
more important, to the victims was how they were treated in the 
system. And so many times it was victim advocates that were 
their interface because the prosecutors would be off doing 
cases.
    So beyond the things that I think people think about in 
terms of help and counseling and services, just having people 
there with them through the process so that they felt it was 
fair, even if a case had to be dismissed because there was not 
enough evidence, or even if a plea had to be taken that was not 
exactly what they wanted in the first place, having a victim 
rights advocate there gave them faith in the system and made 
for such better cases so that victims and witnesses felt 
comfortable about going forward and did not back out at the 
last minute from testifying, because they had someone there for 
them. So I just want to thank all of you for all the good work 
that you are doing.
    I have questions, first of all, Ms. Leary, about the Vision 
21 process, and I was thinking, as we talked about the funding 
and some of the cuts, that we are concerned about and will 
continue to advocate for the funding, that it be there.
    You mentioned in your testimony that one area that Vision 
21 is likely to tackle is improving data collection and 
research on victimization issues, and I think data can help not 
only with finding the most effective programs so we are making 
sure that the money is going where it should, but also to 
support the work that is being done.
    Could you talk about that data collection aspect of Vision 
21?
    Ms. Leary. Yes. The Vision 21 groups have, I think, really 
focused in on the need for research and data collection because 
there is an awful lot about victimization, and particularly 
among underserved victim populations, that we do not know. You 
know, underreporting of crime is a huge problem, so we have to 
figure out how do you get at that.
    And, you know, it is really interesting. Thirty years ago, 
the underreporting was exactly the same statistic as today. I 
found that quite astounding.
    So we know that it is unlikely to change dramatically going 
forward, so we have got to find ways to collect our data 
without relying strictly on reported crime or convictions and 
so on. And that is one of the things that the National Crime 
Victimization Survey attempts to do. But, you know, the survey 
has been in existence for quite some time. I know that Jim 
Lynch, who heads up the Bureau of Justice Statistics, is 
actually looking at a redesign of the survey and has been 
working on that, because we have to kind of come into the 21st 
century and figure out better ways of getting folks to respond 
to the questions about victimization. And we need to find ways 
to collect data from populations that have traditionally just 
been either left out or have withdrawn. The Native American 
population is a good example. Young African-American males. We 
know very little about that type of victimization other than 
what you read, you know, in the Metro section of the Washington 
Post, the sort of sensational crimes that get covered. But we 
do not know that much about the process of victimization and 
the needs of those victims and so on. That is another group.
    We know almost nothing about victims who are in 
institutional settings, and that is where you are going to find 
your victims of elder abuse of all kinds. You are going to find 
your victims who have mental health issues or developmental 
challenges. We do not really know anything about that group. 
And particularly when you think about the elderly, those 85 and 
above are the fastest growing segment of this population. We 
cannot afford not to know about that.
    Senator Klobuchar. Yes. I also took note when you talked 
about the technology and the changing nature of crime. I 
actually have a bill with Kay Bailey Hutchison about updating 
our stalkers legislation and the cyber legislation that is on 
the books that is very outdated to reflect cases like we had in 
the last year with the newswoman who was undressing and someone 
filmed her and then put it out on the Internet. It was actually 
hard for the U.S. Attorney's Office to put a case together in 
that case. And they did, but it could be made a lot easier if 
we updated our laws in election surveillance.
    Along those lines, you said that Vision 21 would address 
how the latest technology could be leveraged to transform how 
we reach and serve victims.
    Ms. Leary. That is right.
    Senator Klobuchar. Could you talk about that?
    Ms. Leary. One of the huge gaps that has been identified by 
Vision 21 is in the capacity of victim service providers. Their 
technology is so unsophisticated because they barely have money 
to pay their staff to keep them around to help the victims. 
They do not have the funding for their general operations or to 
improve technology, to figure out how can we reach out to 
victims, for instance, in a rural area, which I am sure there 
are plenty of those in Minnesota. How do we connect to those 
victims who are far away? How do we connect to those victims 
with our language barriers and cultural barriers that 
technology could actually facilitate bridging those gaps? 
Translation services and things of that nature.
    How can we use technology to meet victims where they are 
at, not just geographically but culturally, and in terms of the 
technology that those victims use. If you read those Pew 
studies, you will find that certain segments of the population 
are much more likely to use a particular type of technology 
than others.
    For instance, in Chicago, the Hispanic community there is 
much more likely to be using the cell phone than a computer, 
which I learned from Pew when I was working on a project with 
the Chicago Police Department out there and trying to figure 
out how you could engage the community. You cannot just rely on 
those, you know, beat meetings every 2 weeks. How are you going 
to reach out? Well, you need to find the kind of technology 
that they relate to that they actually use.
    Senator Klobuchar. Very good.
    Mr. Burbank, you described the crime scene on January 8th 
and that horrible day when so many people were senselessly 
gunned down. I think people sometimes think this is just like 
magic, the victims people there. Could you tell us about the 
kind of training that goes into building a victims advocacy 
division?
    Mr. Burbank. Absolutely. You are right, it just does not 
magically appear. It takes a lot of work to put this together. 
We are fortunate, as I mentioned, to have 35 years of 
experience doing this. And what it looks like is we actually 
send our volunteers through almost the identical training that 
we use for our staff paid positions because we rely on those 
volunteers to do the exact same work as a staff person. They 
have to be ready out in the field to respond to any type of 
crime at any time, day or night.
    So we send them through 36 hours of basic crisis 
intervention training, that is actually available to anyone in 
the metro area of Tucson to partake in if they want. And then 
on top of that, they go through an advanced course that is 
about 30 hours of advance training. And then they do 
essentially on-the-job training.
    So it is a very long process. We ask for at least a year 
commitment from folks, and we ask for 20 hours a week from--
excuse me, 20 hours a month from our volunteers. Twenty hours a 
week would be a lot, wouldn't it?
    [Laughter.]
    Senator Klobuchar. Yes. So I think one of the things people 
think, well, you know, obviously with budget crunches we can 
use more volunteers and we should use more volunteers. I think 
it is a good idea we have interns in our office. When I was the 
only Senator for 8 months, we had to use a lot of interns 
because we could not add any staff to the budget. But I think 
what people do not understand, you still need training and you 
still need people to oversee the volunteers.
    Mr. Burbank. Absolutely. It cannot all be done with 
volunteers. We make an amazing use of volunteers in our 
program, and we are very proud of that. But the reality is we 
have to have staff overseeing those volunteers, training those 
volunteers. It is an enormous commitment of time and energy in 
order to maintain this volunteer pool to be able to provide 
these services.
    Senator Klobuchar. OK. Thank you.
    Ms. Garvin, do you want to answer that question as well 
about how volunteers are critical to the National Crime Victim 
Law Institute's work and how we could utilize volunteers and 
how they still have to be supervised and trained?
    Ms. Garvin. Absolutely. As I mentioned in my testimony, 
NCVLI has 11 clinics operating around the country, but we have 
been trying to complement that by growing a national pro bono 
pool of attorneys and advocates, and we put them through 
training. The name of that is the National Alliance of Victims' 
Rights Attorneys, and we have almost 1,000 members right now.
    But what is critical is we can have an attorney anywhere in 
the country, but often they have not had the training on what 
victims' rights are. Any of the lawyers in the room know, and 
as I know you know from law school, the words ``victim'' and 
``victims' right'' does not yet show up in the law school 
curriculum, even today. And so training lawyers how to 
represent victims is a pretty intensive process.
    So we are working on it. We are working nationally to try 
to have lawyers around the country know how to do it, know how 
to do it without re-victimizing victims. But it takes intensive 
work, and we need to keep at it.
    Senator Klobuchar. And is the model that we had in our 
office in Hennepin County the norm? And we had--I do not know 
if it was 20 people or 30 who were non-lawyers for the most 
part--a few were lawyers--who were basically the victims' 
contacts. And it did not mean the prosecutors were not working 
with the victims. They were. But it actually saved a lot of 
their time so they could actually do the cases.
    Now, these were all felony-level cases, so we were able to 
do it that way. And to me it saved money in the long term 
because the prosecutors could focus on the cases and keeping up 
with their casework, and the victims' rights advocates handled 
a number of victims for teams of attorneys.
    Ms. Garvin. So that model within a prosecutor's office is a 
great model. It allows the prosecutor to do the prosecution. It 
allows the victim advocate within a system to help navigate for 
the victims. But the complementary model is to also have 
community-based legal advocacy and advocates out there that can 
liaison with the prosecutor's office and independently protect 
victims' rights. And it saves money all around to have all of 
those because of the long-term care aspects that have been 
talked about. If we give victims wrap-around services in the 
criminal justice system, good prosecution, good prosecution-
based victim advocates, and community-based legal services and 
advocacy, we help reduce the trauma that they experience going 
through the system.
    Senator Klobuchar. We did kind of a common--I mean, the 
domestic victims had their own people with the Domestic Service 
Center, and then we had the property team which actually was 
community based. They handled things by area, and so they had 
people that dealt with it that way. Then the rest were in 
specialty areas of types of crime. But I just found it to be 
incredibly helpful. It was more than just holding hands. I 
mean, it was actually helping to get the cases running and make 
sure the victims were there on time.
    I still remember talking to one of our victim advocates, 
and she had a white-collar case, and it was a case where--it 
was a widow, and her husband had been ripped off by some guy 
that went and took all their money and went to Costa Rica and 
got a facelift. And I remember saying to her, ``Well, at least 
you are not dealing with the murder case they got down the 
hall.'' And she goes, ``Are you kidding? '' This woman had 
basically threatened to kill the perpetrator in the facelift 
case. And it reminded me that for victims of crime every case 
is important and that people need someone by their side to calm 
them down and also to make sure the criminal justice system is 
fair.
    Anyway, I want to thank you. What law firm did you work 
with in Minnesota?
    Ms. Garvin. Maslon Edelman.
    Senator Klobuchar. See, you cannot lie because you are on 
the record.
    Ms. Garvin. I know.
    [Laughter.]
    Ms. Garvin. A great law firm.
    Senator Klobuchar. This is how I get my little curious 
things I have. I just ask them on the record so that it will be 
there forever. But I have a lot of friends there.
    Anyway, I want to thank all of you. As you can see, we have 
a lot of work to do. I think you see a Committee that is 
devoted to victims' rights here. Certainly Chairman Leahy is, 
and a lot of former prosecutors on our Committee that 
understand how this works and how important it is, and we will 
continue to advocate for you as we deal not only with the 
budget but with the VAWA reauthorization and other bills that 
we have going forward.
    So thank you so much. So much of the work you do is in the 
trenches. People never know the hard decisions that victims' 
rights advocates have to make and the wrenching stories that 
they have to hear, and then they have got to go home and, you 
know, be with their families and smile and pretend everything 
was OK during the day when it really was not. So I just want to 
thank you for the work that you are doing in the justice system 
and the help that you give people.
    So, with that, we are going to keep the record open--oh, I 
lost Chairman Leahy's gavel. Hold on.
    [Laughter.]
    Senator Klobuchar. All right. We will keep the record open 
for further testimony or anything people want to put on the 
record from the Committee, and thank you.
    With that, the hearing is adjourned.
    [Whereupon, at 11:30 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 73846.001

[GRAPHIC] [TIFF OMITTED] 73846.002

[GRAPHIC] [TIFF OMITTED] 73846.003

[GRAPHIC] [TIFF OMITTED] 73846.004

[GRAPHIC] [TIFF OMITTED] 73846.005

[GRAPHIC] [TIFF OMITTED] 73846.006

[GRAPHIC] [TIFF OMITTED] 73846.007

[GRAPHIC] [TIFF OMITTED] 73846.008

[GRAPHIC] [TIFF OMITTED] 73846.009

[GRAPHIC] [TIFF OMITTED] 73846.010

[GRAPHIC] [TIFF OMITTED] 73846.011

[GRAPHIC] [TIFF OMITTED] 73846.012

[GRAPHIC] [TIFF OMITTED] 73846.013

[GRAPHIC] [TIFF OMITTED] 73846.014

[GRAPHIC] [TIFF OMITTED] 73846.015

[GRAPHIC] [TIFF OMITTED] 73846.016

[GRAPHIC] [TIFF OMITTED] 73846.017

[GRAPHIC] [TIFF OMITTED] 73846.018

[GRAPHIC] [TIFF OMITTED] 73846.019

[GRAPHIC] [TIFF OMITTED] 73846.020

[GRAPHIC] [TIFF OMITTED] 73846.021

[GRAPHIC] [TIFF OMITTED] 73846.022

[GRAPHIC] [TIFF OMITTED] 73846.023

[GRAPHIC] [TIFF OMITTED] 73846.024

[GRAPHIC] [TIFF OMITTED] 73846.025

[GRAPHIC] [TIFF OMITTED] 73846.026

[GRAPHIC] [TIFF OMITTED] 73846.027

[GRAPHIC] [TIFF OMITTED] 73846.028

[GRAPHIC] [TIFF OMITTED] 73846.029

[GRAPHIC] [TIFF OMITTED] 73846.030

[GRAPHIC] [TIFF OMITTED] 73846.031

[GRAPHIC] [TIFF OMITTED] 73846.032

[GRAPHIC] [TIFF OMITTED] 73846.033

[GRAPHIC] [TIFF OMITTED] 73846.034

[GRAPHIC] [TIFF OMITTED] 73846.035

[GRAPHIC] [TIFF OMITTED] 73846.036

[GRAPHIC] [TIFF OMITTED] 73846.037

[GRAPHIC] [TIFF OMITTED] 73846.038

[GRAPHIC] [TIFF OMITTED] 73846.039

[GRAPHIC] [TIFF OMITTED] 73846.040

[GRAPHIC] [TIFF OMITTED] 73846.041

[GRAPHIC] [TIFF OMITTED] 73846.042

[GRAPHIC] [TIFF OMITTED] 73846.043

[GRAPHIC] [TIFF OMITTED] 73846.044

[GRAPHIC] [TIFF OMITTED] 73846.045

[GRAPHIC] [TIFF OMITTED] 73846.046

[GRAPHIC] [TIFF OMITTED] 73846.047

[GRAPHIC] [TIFF OMITTED] 73846.048

[GRAPHIC] [TIFF OMITTED] 73846.049

                                 <all>

</pre></body></html>
